No. _ __

In The

Supreme Court of the United States

TIMOTHY TIJWAN DOCTOR

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Timothy Tijwan Doctor, asks leave to file the enclosed
Petition for a Writ of Certiorari without prepayment of costs and to proceed in
forma pauperis in accordance with Supreme Court Rule 39. The filing of this

petition is a continuation of the representation of the petitioner under a Criminal
Justice Act (18 U.S.C. ยง 3006A) appointment by the United States District Court.
WHEREFORE, Petitioner Timothy Tijwan Doctor prays for leave to proceed
in forma pauperis.

Respectfully submitted,
/s/ Patrick K. Korody
Patrick K. Korody, Esquire
Korody Law, P.A.
Florida Bar No. 0107361
118 W. Adams Street, Suite 500
Jacksonville, Florida 32202
Telephone: (904) 383-7261
Facsimile: (904) 204-9548
Email: patrick@korodylaw.com
Counsel for Petitioner

